No. ______
IN THE

Supreme Court of the United States
CHARLES MALCOLM SPIVEY, JR.
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Eric J. Brignac, hereby certify that I am a member of the Bar of this Court,
and that I have this 10th day of September 2020, caused a paper copy of the Petition for
a Writ of Certiorari to be delivered to the Court and an electronic version of the
document to be delivered to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

/s/ Eric J. Brignac
Eric J. Brignac

